OFFICE OF INSPECTOR GENERAL


FOLLOW-UP AUDIT OF
USAID/REGIONAL CENTER
FOR SOUTHERN AFRICA’S
CONTRACTOR
PERFORMANCE EVALUATION
PROGRAM
AUDIT REPORT NO. 4-690-06-007-P
May 18, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General


May 18, 2006

MEMORANDUM

TO:                  USAID/Regional Center for Southern Africa, Acting Regional Mission Director,
                     Anthony Vodraska

FROM:                Regional Inspector General/Pretoria, Jay Rollins /s/ [James Gaughran for]

SUBJECT:             Follow-up Audit of USAID/Regional Center for Southern Africa’s Contractor
                     Performance Evaluation Program (Report No. 4-690-06-007-P)


This memorandum transmits our draft report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those comments in
their entirety, as Appendix II.

This report has two recommendations to improve USAID/Regional Center for Southern Africa’s
(USAID/RCSA) contractor performance evaluation program. In response to the draft report
USAID/RCSA concurred with both recommendations. The Mission provided a corrective action
plan and target completion date for Recommendation No. 1. Therefore, we consider that a
management decision has been reached for this recommendation. As a result of actions taken by
the Mission, we consider Recommendation No. 2 to have received final action upon the issuance
of this report. Please provide the Audit, Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendation No. 1.

I appreciate the cooperation and courtesy extended to my staff throughout the follow-up audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

     Not All Evaluations Have Been Completed................................................................. 3

     Tracking Procedures Need to Be Strengthened ......................................................... 4

Evaluation of Management Comments ......................................................................... 8

Appendix I – Scope and Methodology .......................................................................... 9

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
The Regional Inspector General, Pretoria conducted this follow-up audit to determine
whether USAID/Regional Center for Southern Africa’s (USAID/RCSA) actions in
response to Recommendation Nos. 1 and 2 of the Office of Inspector General’s Audit
Report No. 4-690-05-002-P, issued in December 2004, were effective in correcting the
identified problems. (See page 2.)

For Recommendation No. 1, the follow-up audit found that, although the Mission had
made progress in completing the backlog of contractor performance evaluations it had
identified to complete, many evaluations were still in various stages of being completed.
As a result, with several final and interim evaluations in progress, the Mission had not
yet completed the backlog of overdue evaluations. Therefore, this recommendation
remains open without final action. (See pages 3-4.)

For Recommendation No. 2, USAID/RCSA had developed a contractor performance
evaluation tracking system and a contractor performance evaluation video. Although
these actions were meant to help overcome problems that had been identified in the
prior audit, this follow-up audit found that problems continued to exist in trying to process
contractor performance evaluations on a timely basis. (See pages 4-7.)

Rather than reopening Recommendation No. 2 from the December 2004 audit report,
which had already received final action, we are making two new recommendations in
this report. These two recommendations will help USAID/RCSA improve its Contractor
Performance Evaluation program. (See page 7.) In response to the draft report
USAID/RCSA concurred with both recommendations. The Mission provided a corrective
action plan and target completion date for Recommendation No. 1. Therefore, we
consider that a management decision has been reached for this recommendation. As a
result of actions taken by the Mission, we consider Recommendation No. 2 to have
received final action upon the issuance of this report. (See pages 8 and 11.)




                                                                                           1
BACKGROUND
On December 15, 2004, the Office of Inspector General (OIG) issued Audit Report No.
4-690-05-002-P. The audit was designed to determine whether USAID/Regional Center
for Southern Africa (USAID/RCSA) had complied with USAID and Federal Acquisition
Regulation (FAR) guidelines in evaluating and reporting contractor performance. The
audit determined that USAID/RCSA had not implemented a contractor performance
evaluation program as required by USAID policies and procedures with regard to
conducting interim and final contractor performance evaluations.        As a result,
USAID/RCSA had not completed all the required interim and final evaluations on
contracts and task orders in excess of $100,000. To address the problems, the previous
audit report included the following recommendations:

    •   Recommendation No. 1: We recommend that USAID’s Regional Center for
        Southern Africa determine which of its overdue contractor performance
        evaluations should be completed, and complete them in accordance with USAID
        policies and procedures.

    •   Recommendation No. 2: We recommend that USAID’s Regional Center for
        Southern Africa develop and implement a procedure that includes a tracking
        system to help its contracting officers initiate and complete all final and interim
        contractor performance evaluations as required.

On April 14, 2005, USAID/RCSA submitted a memorandum to USAID’s Office of
Management Planning and Innovation (MPI) requesting that MPI close the
recommendations made in the audit report. The attachments to the memorandum
documented actions taken by the Mission and provided information on the
implementation of the audit recommendations. In a memorandum dated August 23,
2005, USAID’s Audit, Performance and Compliance Division (formerly MPI) stated that
final action for Recommendation 1 would not be achieved until USAID/RCSA
management rendered a final determination on the outstanding final contractor
performance report. In addition, the Audit, Performance and Compliance Division stated
that final action had been achieved for Recommendation 2.

AUDIT OBJECTIVE
This follow-up audit was conducted in accordance with the U.S. Office of Management
and Budget’s Circular No. A-50 and Office of Inspector General (OIG) audit policy, which
require the OIG to follow up on audit recommendations. Specifically, the follow-up audit
was conducted to answer the following question:

•   Were USAID/RCSA’s actions in response to Recommendation Nos. 1 and 2 of Audit
    Report No. 4-690-05-002-P effective in correcting the identified problems?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         2
AUDIT FINDINGS
USAID/Regional Center for Southern Africa’s (RCSA) actions in response to
Recommendation Nos. 1 and 2 of Audit Report No. 4-690-05-002-P have not been
effective in correcting the identified problems.

In response to Recommendation No. 1 from the prior audit report, USAID/RCSA had
determined which of its overdue contractor performance report evaluations, both interim
and final, needed to be completed. The Mission outlined a plan of action for completing
the evaluations and established a target completion date of April 30, 2005. Although the
Mission has made progress in completing its backlog of Contractor Performance
Evaluations, many are still in various stages of being processed.

Although a tracking system and video were developed in response to Recommendation
No. 2 in the prior audit report, problems continue to exist in trying to process Contractor
performance evaluations on a timely basis. The Mission still needs to take additional
action to further strengthen its evaluation process.                Instead of reopening
Recommendation No. 2 from the December 2004 audit report, which had already been
closed, we are making two new recommendations.

Not All Evaluations Have Been Completed

  Summary: Both USAID’s Automated Directives System (ADS) Chapter 302 and
  the Federal Acquisition Regulation 42.15 require the use of contractor performance
  evaluations. In response to Recommendation No. 1, USAID/RCSA had determined
  which of its overdue final and interim contractor performance evaluations should be
  completed and initiated actions to complete them. However, USAID/RCSA did not
  complete all the required contractor performance evaluations that they had
  identified, and many evaluations were still in progress. Contractor performance
  evaluations had not been completed in part because of a shortage of contracting
  officers working at the Mission. As a result, important information on contractor
  performance was not officially documented. This could result in future selection of
  contractors who have performed poorly under USAID contracts in the past.

According to ADS 302.5.9, Evaluation of Contractor Performance, it is USAID policy that
contracts in excess of $100,000, including individual task orders under indefinite quantity
contracts, must be evaluated at least annually (for contracts exceeding one year in
duration) and on completion of activities, as required by FAR 42.1502. The ADS further
states that more frequent evaluation may be conducted if the Contracting Officer and
Cognizant Technical Officer determine them to be in the best interests of the activity. In
response to USAID/RCSA not being able to implement its contractor performance
evaluation program in accordance with these requirements, RIG/Pretoria included
Recommendation No. 1 in its prior audit report. This recommendation stated, “We
recommend that USAID’s Regional Center for Southern Africa determine which of its
overdue contractor performance evaluations should be completed, and complete them in
accordance with USAID policies and procedures.”




                                                                                         3
In response to Recommendation No. 1, USAID/RCSA had determined which of its
overdue final and interim contractor performance evaluations needed to be completed.
The Mission outlined a plan of action for completing the evaluations and established a
target completion date of April 30, 2005. At the time of this follow-up audit, 34 final
evaluations that were outstanding at the time of the prior audit were in the following
status: 27 final evaluations were completed and 7 evaluations were in progress. In the
case of interim contractor performance evaluations, USAID/RCSA had not completed all
the required interim contractor evaluations that were identified from the prior audit as
requiring contractor evaluations. To date, interim evaluations that were outstanding at
the time of the prior audit have resulted in the following status: 13 interim evaluations
completed; 6 interim evaluations in progress; 15 final evaluations completed; and 14
final evaluations in progress (these final evaluations included both evaluations
completed in-lieu of an interim evaluation, as well as evaluations where a final evaluation
was due).

Mission officials stated that, until recently, they lacked adequate staffing resources to
complete the required contractor performance evaluations. The issue of staff shortages
was raised in the prior audit report, as well as the Mission’s Fiscal Year 2005 Annual
Federal Manager’s Financial Integrity Act. Specifically, one Mission official said that for
most of the time evaluations were being completed, only one regional contracting officer
was working at USAID/RCSA. This same official said he felt that the Mission had carried
out many contractor performance evaluations without an adequate staffing level of
regional contracting officers. At the time of this follow-up audit, three additional
contracting officers were now working at USAID/RCSA. Other factors contributed to the
Mission not completing all of the targeted contractor performance evaluations. These
included, in part, the fact that the assigned CTOs were no longer working at that
particular Mission.

By not completing the targeted evaluations, contractors’ performance was not evaluated
or documented. Therefore, important information on contractor performance was not
recorded and will not be available for use in the future during source selection for new
awards. This could result in the future selection of contractors who have performed
poorly under prior USAID contracts.

Although progress has been made, USAID/RCSA needs to ensure that all the
contractors they identified as requiring an interim or final evaluation from
Recommendation No. 1 in the prior audit are completed. At this time, with several final
and interim evaluations still in progress, the Mission has not taken final action on the
recommendation. Consequently, we concur with Audit, Performance and Compliance
Division’s earlier decision that final action had not been achieved.

Tracking Procedures Need to
Be Strengthened

  Summary: USAID’s Automated Directives System (ADS) Chapter 302 requires
  annual interim and final evaluations of contractor performance on all contracts and
  task orders in excess of $100,000. In response to the prior audit report,
  USAID/RCSA developed a contractor performance evaluation tracking system and
  video. Yet, contractor evaluation problems persist with incomplete tracking and



                                                                                         4
    evaluations not being completed in a timely manner. This was caused by (1)
    important tracking data not being collected; (2) no written procedural guidance had
    been developed for the Mission’s staff, and (3) CTOs were not completing
    evaluations on a timely basis. As a result, the problem of not having contractor
    performance evaluations completed on a timely basis that was identified in the prior
    audit report continues today. One of the effects of this problem is that contractors
    are not being provided an assessment of their performance on a timely basis. In
    addition, when this occurs, the possibility exists that some contractors who
    performed poorly, and were not evaluated, may be selected for additional work with
    USAID.

ADS Chapter 302.5.9, Evaluation of Contractor Performance, states that contracts in
excess of $100,000, including individual task orders under indefinite quantity contracts,
must be evaluated at least annually (for contracts exceeding one year in duration) and
upon completion of activities. ADS Chapter 302.5.10 provides that past performance
information should be used by source selection evaluation committees in awarding new
contracts. USAID’s Past Performance Handbook: Contractor Performance Report
Cards, a mandatory reference in ADS 302, provides the procedure for conducting
contractor performance evaluations. It notes that the initial performance assessment is
a collaborative effort between the contracting office and the technical office. Contract
Information Bulletin 97-28, an appendix in the Past Performance Handbook, notes that
an evaluation should be initiated within 30 days after completion of activities (or in
October for active contracts), and completed within 90 days (or in December for active
contracts). The October and December time periods were the result of policy guidance
issued by USAID’s Office of Procurement in May 2002. Each subsequent interim
evaluation must be performed before 12 months have elapsed since the previous interim
evaluation. When a contract needs an evaluation, the responsible Contracting Officer
(CO) should request that the Cognizant Technical Officer (CTO) develop the evaluation
since the CTO is the party most knowledgeable about contractor performance in the
areas of quality, cost control, and timeliness. Because USAID/RCSA was not able to
implement its contractor performance evaluation program in accordance with these
provisions, RIG/Pretoria developed Recommendation No. 2 in its prior audit report. This
recommendation stated, “We recommend that USAID’s Regional Center for Southern
Africa develop and implement a procedure that includes a tracking system to help its
contracting officers initiate and complete all final and interim contractor performance
evaluations as required.”

In response to Recommendation No. 2, the Mission instituted a tracking system for its
COs to use in initiating and completing final and interim contractor performance
evaluations.    In addition, the Mission also developed a 23-minute Contractor
Performance Evaluation video formatted onto a compact disk. Copies of the video were
sent to each of the Missions served by USAID/RCSA. The video provided information
such as legal requirements for contractor performance evaluations, the National
Institutes of Health system, and the process of entering evaluation data into the system.
Although these actions were meant to help overcome problems that had been identified
in the prior audit, additional problems were identified during the current follow-up audit.
These included:

•    The new tracking system developed for the COs did not include tracking information
     such as date sent to CTO, number of days with CTO, and completion date.


                                                                                           5
•   Several contractor performance evaluations in the past year (from USAID/RCSA,
    USAID/Angola, and USAID/Malawi) were 180-220 days overdue because they had
    not been submitted by the responsible CTOs. To remedy this problem, a CO from
    USAID/RCSA, who was not familiar with the performance of these contractors, wrote
    the evaluations for the contractors and gave them all ratings that were average.

•   Two other evaluations in the past year had been overdue by over 200 days without
    the responsible CTOs providing contractor performance evaluation. One of these
    had been completed the week prior to this follow-up audit and the other was still
    waiting for the CTO to prepare the evaluation.

•   For two different contractors, whose evaluations were being handled by the same
    USAID/RCSA acquisition specialist, the CTO started the interim contractor
    evaluations on February 10, 2005. One of the contractors had comments which
    were due on February 10, 2006 and the other on February 16, 2006—resulting in the
    evaluations taking over one year from start to completion. This acquisition specialist
    said, that until recently, he was not aware of the requirement to make the evaluations
    available for comment to each of the contractors.

There are three primary causes for these problems. The first was that the tracking
system that was developed did not track important elements that would be needed to
monitor the progress of the evaluation process. This would include information such as
(1) the date sent to the CTO, (2) the number of days with the CTO, and (3) the
completion date. Instead, it only contained the contractor name and award number,
start/end dates of the contract, the estimated total amount, and status comments.
Instead of the tracking system, copies of the Mission’s Action Status Reports were relied
upon by most of the acquisition staff and contracting officers to monitor the progress of
the evaluations. However, the Action Status Report also did not provide specific items
such as the number of days with the CTO and dates sent to the CTO. The Action Status
Report also reported other contract information. Second, USAID/RCSA developed and
implemented a procedure that included a tracking system to help its Contracting Officers
initiate and complete all final and interim contractor performance evaluations. However,
no written procedural guidance had been prepared by the Mission. Instead, the
contractor performance evaluation video was intended to provide this guidance.
However, a new staff member noted that having a simple checklist or one-page
document that listed the procedures to be followed for the contractor evaluation process
would be helpful. Third, Mission procurement staff expressed frustration with CTOs who
would not complete the evaluations on a timely basis. The procurement staff said that in
these cases, the CTOs would not respond to their emails that inquired about the status
of overdue contractor performance evaluations.

The problem of not having contractor performance evaluations completed on a timely
basis was reported in the prior audit report (No. 4-690-05-002-P) and continues today.
Delays in completing contractor evaluations results in contractors not being provided an
assessment of their performance on a timely basis. In addition, USAID selection
committees tasked with choosing the best bidder for proposed awards will lack useful
data on contractors’ past performance if the contractors have not been subjected to a
contractor performance evaluation. As a result, poorly performing contractors could be
selected for additional USAID work, resulting in USAID’s limited resources not being
used efficiently.


                                                                                        6
In conclusion, USAID/RCSA needs to further strengthen procedures regarding its
contractor performance evaluation process. Instead of reopening Recommendation No.
2 from the December 2004 audit report, which had already received final action, we are
making two new recommendations. These recommendations will help to strengthen
USAID/RCSA’s ability to perform contractor performance evaluations.

    Recommendation No. 1: We recommend that USAID’s Regional Center for
    Southern Africa prepare and issue written procedures to help its procurement
    staff initiate and complete all final and interim contractor performance
    evaluations as required.

    Recommendation No. 2: We recommend that USAID’s Regional Center for
    Southern Africa modify its tracking system so that it can be used as intended.
    This modification should include (1) the date the Cognizant Technical Officer
    was requested to prepare the contractor performance evaluation, (2) the
    number of days the request was with the Cognizant Technical Officer, and (3)
    the completion date.




                                                                                     7
EVALUATION OF
MANAGEMENT COMMENTS
In responding to our draft report, USAID/ Regional Center for Southern Africa’s (RCSA)
management concurred with Recommendation Nos. 1 and 2. For Recommendation No.
1, the Mission indicated that it had already developed a draft Mission Directive providing
Contractor Performance Evaluation Procedures. This procedure is undergoing Mission
clearances prior to issuance. The target date for completing this recommendation is
May 24, 2006. In the case of Recommendation No. 2, the Mission provided evidence
that it had already included the three data fields identified in the recommendation into
the Mission’s RCSA tracking system. Based on the above information, we consider that
a management decision has been reached for Recommendation No. 1 and that final
action has been achieved for Recommendation No. 2.




                                                                                        8
                                                                             APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this follow-up audit in accordance
with generally accepted government auditing standards. The purpose of the follow-up
audit was to determine whether USAID’s Regional Center for Southern Africa
(USAID/RCSA) actions taken to close Recommendation Nos. 1 and 2 of Audit Report
No. 4-690-05-002-P were effective in correcting the identified problems. The follow-up
audit covered the period from August 7, 2004 to January 26, 2006. To make this
determination, we reviewed Mission actions taken in response to the prior audit. The
types of evidence reviewed were--but not limited to--the contract files, hard-copy
contractor performance evaluations, and electronic contractor performance evaluations
from the National Institutes of Health’s (NIH) Contractor Performance Review System.
In addition, we reviewed the tracking system developed by the Mission for tracking final
and interim contractor performance evaluations and viewed the contractor performance
evaluation video that was made by USAID/RCSA. To answer the audit objective, we
took steps to determine whether the Mission had (a) completed the interim and final
contractor performance evaluations identified during the prior audit, and (b) implemented
a tracking system. In planning and performing the follow-up audit, we tested and
assessed significant management controls, specifically the Mission’s process for
processing contractor performance evaluations, and its contractor performance
evaluation tracking system. Additionally, we reviewed the Mission’s documents provided
to USAID’s Office of Management Planning and Innovation (M/MPI) requesting final
action on the recommendations. We also reviewed the correspondence from USAID’s
Audit, Performance and Compliance Division (formerly MPI) that closed
Recommendation 2, but not Recommendation No. 1. As a result, Recommendation No.
1 maintained a non-final action status. The follow-up audit was conducted at the
USAID/RCSA in Gaborone, Botswana from January 23 through January 27, 2006.

Methodology
In planning and performing the audit, we obtained and reviewed the previous audit
report, examined USAID/RCSA’s supporting documents that were prepared for the
purpose of closing the recommendations, and interviewed officials from the Mission.

For criteria, we used the relevant information from USAID’s Automated Directives
System and other Federal policies. We also relied upon Audit Report No. 4-690-05-002-
P (issued by RIG/Pretoria on December 15, 2004), on which this follow-up audit was
based, in order to (1) identify and review the criteria that had been used, and (2) gain an
understanding of the reported finding. We also determined the extent to which the
problem areas had been addressed through the Mission’s corrective actions. These
determinations were based on professional judgment.

In the case of Recommendation No. 1 from the prior report, we obtained and reviewed a
list of active and completed contracts and task orders in excess of $100,000 identified
from the prior audit and determined how many evaluations the Mission agreed to



                                                                                         9
                                                                                APPENDIX I


complete. We then compared the list against the completed contractor evaluations that
were maintained in files by USAID/RCSA.

In reviewing the tracking system developed in response to Recommendation No. 2, we
interviewed contracting officers and acquisition specialists. We then analyzed the extent
to which the tracking system was being utilized for tracking the status of the evaluations,
and also determined whether this system was working as intended.

The nature of this follow-up audit did not lend itself to materiality thresholds; thus none
were developed.




                                                                                              10
                                                                          APPENDIX II




                                                                         May 5, 2006

MEMORANDUM

TO:                  Regional Inspector General/Pretoria, Jay Rollins

FROM:                USAID/RCSA Acting Mission Director, Anthony Vodraska

SUBJECT:             Follow-up Audit of USAID/RCSA’s Contractor Performance
                     Evaluation Program (Draft Report No. 4-690-06-XXX-P)
                     Dated March 23, 2006

This memorandum is in response to the subject draft audit report submitted for RCSA’s
review and comment. RCSA agrees with the audit recommendations and has provided
comments constituting proposed corrective action.

Recommendation No. 1: We recommend that USAID’s Regional Center for
Southern Africa prepare and issue written procedures to help its procurement
staff initiate and complete all final and interim contractor performance evaluations
as required.

RCSA wishes to note that action has already been initiated to implement this
recommendation. Attached is a draft Mission Directive providing Contractor
Performance Evaluation Procedures that is undergoing mission clearances prior to
issuance.

Recommendation No. 2: We recommend that USAID’s Regional Center for
Southern Africa modify its tracking system so that it can be used as intended.
This modification should include (1) the date the Cognizant Technical Officer was
requested to prepare the contractor performance evaluation, (2) the number of
days the request was with the Cognizant Technical Officer, and (3) the completion
date.

RCSA wishes to note that action has already been initiated to implement this
recommendation. The three fields noted in the recommendation have been added to the
RCSA tracking system.

RCSA appreciates the thoroughness and dedication exhibited by RIG/A in its efforts to
improve RCSA’s management efficiency.

Attachment: a/s

                   Regional Center for Southern Africa

      Plot 14818 Lebatlane Road                                      Tel: +267 392 4449
      P.O. Box 2427                                                  Fax: +267 392 4404
      Gaborone, Botswana                                             http://usaid-rcsa.org




                                                                                        11
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
